     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




       Afghanistan’s High Office of Oversight Needs
   Significantly Strengthened Authority, Independence,
        and Donor Support to Become an Effective
                 Anti-Corruption Institution




                                December 16, 2009

SIGAR Audit-10-2 High Office of Oversight
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION

December 16, 2009

The Honorable Hillary R. Clinton
U.S. Secretary of State

The Honorable Karl W. Eikenberry
U.S. Ambassador to Afghanistan

Alonzo L. Fulgham
Acting Administrator
U.S. Agency for International Development

William M. Frej
USAID Mission Director to Afghanistan

This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s review of U.S. and other donor efforts to strengthen the capability of Afghanistan’s
High Office of Oversight (HOO) to fight corruption. It includes five recommendations. This report is part
of a series of audits of U.S. efforts to combat corruption and strengthen the rule of law in Afghanistan.

A summary of our report is on page ii. This performance audit was conducted under the authority of
Public Law No. 110-181 and the Inspector General Act of 1978, as amended. When preparing the final
report, we considered joint comments on a draft of this report from the U.S. Embassy Kabul and the U.S.
Agency for International Development’s Mission in Afghanistan (USAID/Afghanistan). Those comments
indicated concurrence with the findings and recommendations in this report. A copy of the comments is
included as an appendix to this report. We also provided a draft of this report to the HOO, but it did not
provide a written response.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General
   for Afghanistan Reconstruction


SIGAR Audit-10-2 High Office of Oversight                                                       Page i
                                                                           SIGAR Audit-10-2                                    December 2009


                      SIGAR
                                                       Special inspector General for Afghanistan Reconstruction

                                                                           AFGHANISTAN’S HIGH OFFICE OF OVERSIGHT NEEDS
                  .                                                        SIGNIFICANTLY STRENGTHENED AUTHORITY,
    Special Inspector General for Afghanistan Reconstruction               INDEPENDENCE, AND DONOR SUPPORT TO BECOME AN
                                                                           EFFECTIVE ANTI-CORRUPTION INSTITUTION
 What SIGAR Reviewed
 The strengthening of institutions that implement anti-corruption measures in Afghanistan is a key operational principle of
 the U.S. Government’s draft Anti-Corruption Strategy. Afghanistan’s High Office of Oversight (HOO) was established by
 President Karzai in July 2008 to oversee and coordinate national efforts to combat corruption in accordance with
 Afghanistan’s own anti-corruption strategy under its Afghanistan National Development Strategy. During this audit, SIGAR
 (1) reviewed the assistance provided by the United States and other donors to strengthen the institutional development of
 the HOO, (2) assessed the capabilities and performance of the HOO in fulfilling its mandate, and (3) assessed U.S.
 assistance to the HOO. This report is part of a series of audits addressing U.S. efforts to combat corruption and strengthen
 the rule of law in Afghanistan. SIGAR conducted this performance audit in Kabul, Afghanistan and Washington, D.C. from
 September to November 2009 in accordance with generally accepted government auditing standards.
               The High Office of Oversight (HOO) has been provided with approximately $1 million in
               assistance from the U.S. Agency for International Development (USAID) as well as about $7.3
 What SIGAR Found
               million from the United Nations Development Program (UNDP) devoted to the institutional
 In addition todevelopment
                 its own funds,ofthe theHOO
                                          HOO.hasToreceived     about
                                                       date, with   this$1  million in assistance
                                                                          assistance,   the HOO has   from    the U.S. Agency
                                                                                                         undertaken      certainfor   International
                                                                                                                                   anti-
 Developmentcorruption
                 (USAID) and initiatives at varying degrees of progress, including a vehicle registration project and Programme
                                 is budgeted     to  receive  a total  of $7.3  million  from  the   United     Nations  Development
 (UNDP). Thisan assistance
                   asset declaration       devotedfor
                              has been process        to the  institutional
                                                         Afghan               development
                                                                   public officials.          of the
                                                                                        However,     theHOO.
                                                                                                          HOOWith      thisfrom
                                                                                                                  suffers    assistance, the HOO has
 undertaken anti-corruption        initiatives,  with  varying   degrees   of progress.    These   include
               significant gaps in operational capacity. The HOO is greatly understaffed, and many of its      a vehicle  registration   project and an
 asset declaration    process   for  Afghan  public    officials. However,     the  HOO   suffers  from     significant
               employees are either inexperienced or lacking in basic skills, such as computer use, English, and        gaps   in operational
 capacity. Theinformation
                 HOO is greatly      understaffed,
                                gathering   techniques.and many    of its employees
                                                             The HOO’s                  are either does
                                                                           enabling legislation       inexperienced
                                                                                                             not investorit lack
                                                                                                                             withbasic skills, such as
 computer usesufficient
                  and information      gathering    techniques.    Moreover,     the   HOO’s  enabling
                            authority or enforcement power and needs substantial revision. Furthermore,     legislation does   notthe
                                                                                                                                    invest it with
 sufficient authority                                           legislation
               HOO suffers from a lack of organizational, external and personal independence required fromHOO
                        or enforcement      power     and  the               needs    substantial   revision.    Furthermore,     the    an lacks the
 organizational,   external,   and  personal    independence      required    by  international  standards
               oversight institution. Finally, although the international assistance provided thus far to the HOOfor an oversight    institution.
 Finally, although   the international
               has been    greatly valued, assistance
                                               the U.S.provided     thus far
                                                           government      hastohadtheno
                                                                                       HOO   hasorbeen
                                                                                         office            greatlyspecifically
                                                                                                     individual     valued, the U.S. government
 has had no office
               designated to oversee or coordinate U.S. assistance to the HOO, and U.S. overalltocoordination
                      or individual   specifically   designated    to oversee    or  coordinate  U.S.    assistance       the HOO, and U.S. overall
 coordinationandandlevel
                      level of
                            of demonstrated
                                demonstrated commitment
                                                  commitment of     of support
                                                                       supportto  tothe
                                                                                      theHOO
                                                                                          HOOneeds
                                                                                                needsimprovement.
                                                                                                          improvement.
 What SIGAR` Recommends
 SIGAR recommends that the U.S. Ambassador to Afghanistan:

      •     Determine, in consultation with the HOO, USAID, and other donors, conditions on which to base future assistance,
            including the enactment of mutually agreeable legislative reforms based on key principles to enhance HOO’s
            authority and independence, and the establishment by the HOO of measureable performance benchmarks;
      •     Urge, through appropriate diplomatic channels including the Joint Coordination and Monitoring Board, that the
            HOO Director General and Deputy Director General either resign from their presidential advisory positions or,
            alternatively, resign from their HOO positions to remedy an impairment of personal independence on the part of
            those HOO leaders;
      •     Designate an agency or individual to oversee U.S. assistance to the HOO, both in terms of institutional capacity
            building and legislative reform, in conjunction with international partners;
      •     Ensure that the designated agency oversee the appointment of high-level advisors, such as judges or anti-
            corruption specialists, to be embedded at the HOO in order to provide sustained counsel, mentoring, and strategic
            advice to HOO leadership; and
      •     Engage the international community to reinvigorate international donor coordination efforts, perhaps under the
            auspices of the United Nations Assistance Mission in Afghanistan.
                                                                    i
 For more information contact: SIGAR Public affairs at (703) 602-8742 or PublicAffairs@sigar.mil



SIGAR Audit-10-2 High Office of Oversight                                                                                                  Page ii
TABLE OF CONTENTS


Background                                                                                 2

International Support Has Enabled the HOO to Begin Several Anti-Corruption Efforts         4

The HOO Has Significant Gaps in Its Operational Capacity                                   6

The HOO Needs More Coordinated Support and Commitment from the United States              11

Conclusions                                                                               12

Recommendations                                                                           13

Comments                                                                                  14

APPENDIX I: Scope and Methodology                                                         15

APPENDIX II: Comments from the U.S. Embassy-Kabul and USAID/Afghanistan                   16


TABLE

Table 1: Organization Chart of the High Office of Oversight                                3


ABBREVIATIONS

ACT             UNDP’s Accountability and Transparency Project
ANDS            Afghanistan National Development Strategy
ARTF            Afghanistan Reconstruction Trust Fund
DOJ             Department of Justice
GAO             Government Accountability Office
HOO             High Office of Oversight
INTOSAI         International Organization of Supreme Audit Institutions
SIGAR           Special Inspector General for Afghanistan Reconstruction
TAF             The Asia Foundation
UNAMA           United Nations Assistance Mission in Afghanistan
UNCAC           United Nations Convention against Corruption
UNDP            United Nations Development Programme
UNODC           United Nations Office on Drugs and Crime
USAID           U. S. Agency for International Development

SIGAR Audit-10-2 High Office of Oversight                                            Page iii
      Afghanistan’s High Office of Oversight Needs Significantly Strengthened
           Authority, Independence, and Donor Support to Become an
                       Effective Anti-Corruption Institution

Corruption is widely acknowledged to be a pervasive, entrenched, and systemic problem across
Afghanistan that undermines security, development, and the very legitimacy of the Afghan government.
Thirty years of conflict have weakened state institutions, while the sheer size of international security
and development assistance has increased Afghanistan’s vulnerability to corruption. Afghanistan’s
ranking in the 2009 Transparency International Corruption Perception Index was 179th out of 180
countries, making it, by that standard, the second most corrupt country in the world. Since corruption
is a cross-cutting issue, an institution was urgently needed to oversee and coordinate anti-corruption
efforts in the country. In July 2008, Afghan President Karzai established Afghanistan’s High Office of
Oversight (HOO) for that purpose. 1 The HOO has been mandated to coordinate and supervise the
implementation of Afghanistan’s National Anti-Corruption Strategy, as well as administrative procedural
reform. The creation of the HOO is also in line with a provision of the United Nations Convention
against Corruption, ratified by Afghanistan in August 2008, which requires that each state party “ensure
the existence of a body or bodies” that prevent corruption. 2

Strengthening the capacity of the Afghan government to develop and implement expressed
commitments to combat corruption is an operational principle of the draft U.S. Government Anti-
Corruption Strategy for Afghanistan. In order to fulfill its mandated requirements, the HOO must be of
sufficient capacity to achieve its objectives based on a solid foundation of authority and independence.
Various types of technical assistance provided by the United States and other members of the
international community are currently being provided to strengthen the institutional development of
the HOO. However, the HOO, as a relatively new institution, continues to face challenges in
implementing the Afghan government’s anti-corruption strategy, which serves as a cross-cutting issues
paper for the Afghan National Development Strategy.

This report is part of a series of audits by the Office of the Special Inspector General for Afghanistan
Reconstruction (SIGAR) to address U.S. efforts to combat corruption and strengthen the rule of law in
Afghanistan. It (1) identifies the assistance provided by the United States and other donors to
strengthen the HOO, (2) examines the capabilities and performance of that institution, and (3) assesses
the effectiveness of U.S. assistance to the HOO. We reviewed relevant U.S., Afghan, and international
laws, conventions, standards, and development strategies. We also interviewed HOO leadership,
advisors and department heads, as well as representatives of U.S. and international agencies providing
assistance to the HOO. We conducted our work in Kabul, Afghanistan and Washington, D.C. from


1
The HOO has been alternatively known as the High Office of Oversight and Anti-Corruption or the High Office for
Oversight of the Implementation of the Anti-Corruption Strategy.
2
United Nations Convention against Corruption (UNCAC), Article 6, Paragraph 1.
SIGAR Audit-10-2 High Office of Oversight                                                              Page 1
September to November 2009 in accordance with generally accepted government auditing standards. A
discussion of our scope and methodology is in Appendix I.



BACKGROUND

Afghanistan’s expressed commitment to combat corruption is elaborated in the Afghanistan National
Development Strategy (ANDS) both as part of its Governance, Rule of Law, and Human Rights pillar and
as a cross-cutting theme toward the achievement of national development objectives. A National Anti-
Corruption Strategy 3 was formulated as a cross-cutting issues paper for the ANDS and presented to
President Karzai in March 2008. In the Declaration of the International Conference in Support of
Afghanistan held in Paris in June 2008, the Afghan government “reaffirmed its commitment to intensify
actions to combat corruption and to take concrete steps to that effect.” Through enabling legislation,
titled the Law on Overseeing the Implementation of the Anti-Corruption Strategy (to be referred to in
this report as the HOO legislation), the HOO was created by Presidential Decree in July 2008 to oversee
and coordinate the implementation of both the National Anti-Corruption Strategy and administrative
procedural reform.

The establishment of the HOO is in line with Article 6, Section 1, of the United Nations Convention
against Corruption, ratified by Afghanistan in August 2008, calling for the establishment of an oversight
body to prevent corruption. The HOO is also responsible for communicating key UNCAC benchmarks
among government institutions and ensuring their compliance.

According to a HOO strategy paper, “The overall approach of the High Office will be one of coordination,
collaboration, and leadership. It will not seek to control and command.” In November 2008, high-level
monthly meetings were established and chaired by the President to review progress in implementing
the National Anti-Corruption Strategy. The HOO has not been invested with investigative or
prosecutorial powers. 4 Instead, the HOO is empowered to monitor the progress of legal cases related to
corruption in the appropriate law enforcement agencies and to ensure that action is being taken by
those institutions.

Currently, HOO leadership consists of the Director General and one Deputy Director General. The
Director General is appointed by the President. As shown in Table 1, the HOO has established units
focused on achieving the tasks assigned to it by the HOO legislation, each with distinct but interrelated
functions related to oversight, administrative reform, capacity development, and public awareness.




3
 This strategy was prepared under the direction of Abdul Salam Azimi, Chief Justice of the Supreme Court of
Afghanistan.
4
  Article 134 of the Afghan Constitution stipulates that discovery of crimes is the duty of the police and
investigation and prosecution of crimes is the purview of the Attorney General’s Office.


SIGAR Audit-10-2 High Office of Oversight                                                                    Page 2
Table 1: Organization Chart of the High Office of Oversight


                                                 Director General




                    Deputy Director General                            Deputy Director General
                        Administration                                  Policy and Oversight




    Capacity Development                   Asset Registration




    Oversight         Strategy and            Prevention         Complaints               Case          Media &
                        Planning                                                        Tracking         Public


Source: High Office of Oversight
Note: The position of Deputy Director General for Administration is currently vacant.


The following is a summary of these units and their respective functions:

      •   The Capacity Development and Training Department is responsible for developing the
          professional capacities of both HOO staff and government ministries to implement anti-
          corruption measures.
      •   The Asset Registration Department, in accordance with Article 154 of the Afghan Constitution, is
          mandated to collect declarations of personal assets from public officials of the Afghan
          government. Completion of the Asset Registration process is also a benchmark of the
          Afghanistan Reconstruction Trust Fund. 5
      •   The function of HOO’s Oversight Department is to monitor and verify the progress government
          institutions are making in implementing anti-corruption measures. This department assists
          government ministries in developing their anti-corruption action plans.
      •   The Strategy and Planning Department, as a core unit within the HOO, serves as a gathering
          point for information received from other HOO departments and government ministries. It
          conducts research and analysis on corruption issues; exchanges information with Afghan
          government and international institutions on corruption matters; and works closely with the
          Prevention and Oversight Departments to find gaps in procedures and develop
          recommendations.


5
 The Afghanistan Reconstruction Trust Fund is administered by the World Bank. It was set up in May 2002 to help
the Afghan government finance spending in such areas as infrastructure, rural development, and salaries for public
employees.
SIGAR Audit-10-2 High Office of Oversight                                                               Page 3
    •   The responsibilities of the Prevention Department include the simplification of bureaucratic
        procedures in government institutions, as well as the review of outdated laws, organizational
        structures, and civil service recruitment practices.
    •   The Complaints Management and Information Gathering Department serves as the “eyes and
        ears” of the HOO. It receives complaints from various sources and has limited information
        gathering capabilities. After obtaining additional information on complaints for background
        purposes, this department forwards complaints to appropriate government agencies.
    •   The Case Tracking Department is responsible for reviewing and analyzing cases received either
        from the Complaints Management and Information Gathering Department or directly from the
        HOO Director General. If a case is warranted it is referred to the Attorney General’s Office for
        investigation. The department then follows cases through investigation, prosecution, and
        sentencing.
    •   The Media and Public Outreach Department’s task is to support HOO’s mandate to promote
        public awareness of corruption and HOO anti-corruption initiatives.

The HOO is currently based in Kabul and has plans to expand to seven regional offices throughout the
country. However, HOO leadership has informed SIGAR that they are being cautious about expanding
outside of Kabul until they build sufficient capacity to support regional offices.



INTERNATIONAL SUPPORT HAS ENABLED THE HOO TO BEGIN SEVERAL ANTI-CORRUPTION
EFFORTS

Members of the international community and the HOO staff acknowledge that the HOO has needed
substantial technical and capacity development assistance given the critical role it has to play in the fight
against corruption. The HOO has received various types of technical and financial support from U.S. and
international agencies to achieve its objectives. 6 International donors have emphasized the importance
of providing assistance gradually so as not to build up expectations beyond the capacity of HOO staff to
deliver.

International Assistance to Strengthen the HOO
The U. S. Agency for International Development (USAID) implements its Support for Strategic Needs of
the Government of the Islamic Republic of Afghanistan Program through a cooperative agreement with
the Asia Foundation (TAF). USAID funding, implemented through TAF, totaled approximately $1 million
from October 2008-October 2009. It was used primarily for information technology support, staff
training, office equipment, support for public outreach and media projects, and to provide eight Afghan
national advisors and acting heads of the HOO’s various departments. The Asia Foundation prepared a
budget forecast for additional funding of approximately $1.5 million through September 2010.

The HOO is the main Afghan government counterpart for the United Nations Development Programme’s
(UNDP) Accountability and Transparency (ACT) Project, which initially ran from January 2007 to March
2009, at which point it was revised and is now scheduled to be completed in March 2012. The ACT

6
 In addition to this assistance from other donors, the Afghan government has provided approximately $1 million
of its own funding for the HOO’s operating expenses.
SIGAR Audit-10-2 High Office of Oversight                                                             Page 4
Project, designed to support the Afghan government to develop the necessary capacities to fight
corruption, consists of four components. The first component of the project is designed to improve the
institutional and policy environment created to support the implementation of the national anti-
corruption strategy. Support to the HOO under UNDP’s ACT Project falls primarily under this
component.

The total budget for the ACT Project is over $22.3 million, of which approximately $11.4 million has been
allocated. Major contributors include the United Kingdom’s Department for International Development
which has contributed approximately $8.6 million, the Government of Norway with approximately $1.3
million, and the Government of Italy at nearly $400,000. Project funds budgeted for support to the HOO
total about $7.3 million for the length of the project. Through the project, UNDP has provided support
to the HOO for information technology, provision of equipment, rental of office space, security
upgrades, the rental of vehicles, and both international and national consultants. UNDP has also begun
the process of recruiting additional international and national advisors in various HOO departments.

The United Nations Office on Drugs and Crime (UNODC) is the agency responsible for the
implementation of the United Nations Convention against Corruption. UNODC provided assistance to
the HOO to coordinate Afghan government ministries’ responses to a self-assessment checklist to gauge
progress in UNCAC implementation. UNODC assistance to the HOO also included the development of a
database for the HOO’s Asset Registration Department. UNODC also brought in international experts to
help analyze the HOO’s needs.

Officials from the U.S. Department of Justice, the United Kingdom, UNDP, and UNODC have also assisted
in preparing draft revisions of the HOO legislation to provide the HOO with more authority. Proposed
revisions were sent to the HOO for their suggested changes and the draft is still in the review process.

HOO is also receiving assistance from the World Bank’s Management Capacity Program in the form of
western-level salaries to a small number of experienced experts hired by the HOO. At least one of the
HOO’s department heads has recently been hired through the Management Capacity Program.

To eliminate the prospect of duplication of effort among the international donors, a coordination
mechanism was initiated in the summer of 2009 through a HOO Working Group hosted by the United
Nations Assistance Mission in Afghanistan. However, with the departure of a UNAMA employee in
September 2009, the meetings have been suspended.

The HOO Has Undertaken Certain Initiatives with Varying Degrees of Progress
Staff members and leaders of the HOO, as well as members of the international community, have
provided SIGAR with several examples of initiatives undertaken by the HOO with international support.
Following are some examples:

    •   In accordance with a specified benchmark of the Afghanistan Reconstruction Trust Fund (ARTF)
        and an UNCAC provision requiring asset declaration of public officials, the HOO put in place an
        asset registration process and, as of September 30, 2009, had received required forms from 78
        percent of the individuals indentified as needing to file such forms.
    •   Over a period of 7-8 months, HOO’s Prevention Department has engaged in a project with the
        Ministry of the Interior to simplify the vehicle registration process. Reforms reportedly included
        reducing the number of necessary steps from 51 to 5.

SIGAR Audit-10-2 High Office of Oversight                                                        Page 5
    •   The HOO has developed and produced a series of television and radio documentaries on general
        anti-corruption issues as well as its vehicle registration pilot program.
    •   The HOO has coordinated a self-assessment questionnaire in cooperation with UNODC in order
        to gauge Afghanistan’s progress in implementing the provisions of UNCAC.
    •   The HOO recently began a project, as an implementing partner, with the Afghan nonprofit
        organization Harakat to research and develop an action plan to reform the system for the
        issuance of construction permits in Kabul.
    •   Five HOO departments have completed departmental action plans that are pending final review
        by the HOO leadership.
    •   The HOO has collected and is reviewing draft anti-corruption action plans from 30 Afghan
        government ministries.
    •   The HOO senior officials, with support from USAID, participated in a special anti-corruption
        training program in Singapore. In addition, the HOO Advisor for Asset Registration attended
        advanced anti-corruption training in Indonesia that focused on asset registration and
        declaration processes.


THE HOO HAS SIGNIFICANT GAPS IN ITS OPERATIONAL CAPACITY
The HOO suffers from a lack of independence, a weak legal framework, and a lack of commitment from
donors--particularly from the U.S. Government. It remains operationally under-resourced and lacking in
the necessary skills to make a measurable impact in fighting corruption in the near term, due, in part, to
the fact that no measureable performance benchmarks have been established. Thus, while the HOO has
made limited progress in some areas, it is unable to demonstrate that its efforts have made a significant
impact on the overall level of corruption in Afghanistan. Contributing to this challenge is an insufficient
pool of qualified recruits from which to obtain talent. Consequently, the HOO has fallen short in several
of its responsibilities and is unable to measure progress in others.

Lack of Independence
In its enabling legislation, the HOO is required to be independent in carrying out its duties. While the
legislation does not define the term “independent,” as an oversight organization, the HOO, including its
leadership and employees, should subscribe to and follow internationally-accepted independence
standards as well as a code of ethics. Independence is a crucial standard governing the operation of any
oversight institution and is enshrined in such guiding documents as the International Organization of
Supreme Audit Institutions’ (INTOSAI) Code of Ethics and Government Auditing Standards produced by
the U.S. Government Accountability Office (GAO).

The Code of Ethics issued by INTOSAI, of which Afghanistan is a member, was written for auditors but
could also be applied to organizations such as the HOO. The following INTOSAI requirements are
noteworthy:

    •   It is essential that auditors are independent and impartial, not only in fact but also in
        appearance.
    •   It is important to maintain both actual and perceived political neutrality. Therefore, it is
        important to maintain independence from political influence in order to discharge
        responsibilities in an impartial way.

SIGAR Audit-10-2 High Office of Oversight                                                          Page 6
    •   Avoid all relationships with managers and staff in parties which may influence, compromise or
        threaten the ability to act and be seen to be acting independently.

Although generally accepted government auditing standards issued by the GAO were also written for
auditors, they too could be applied to organizations providing governmental oversight, such as the HOO.
The general independence standard from GAO states:

        In all matters relating to the audit work, the audit organization and the individual
        auditor…must be free from personal, external, and organizational impairments to
        independence, and must avoid the appearance of such impairments of independence.

According to GAO, personal impairments might (1) limit the extent of oversight inquiries, (2) limit
disclosure of offenses, or (3) weaken findings. GAO includes in its examples of personal impairments,
“biases, including those resulting from political, ideological, or social convictions that result from
membership or employment in, or loyalty to, a particular type of policy, group, organization, or level of
government.” The International Federation of Accountants has issued similar independence standards
for oversight organizations.

Contrary to generally-accepted standards and ethical codes for oversight organizations, both the
Director General and the Deputy Director General hold, and receive remuneration for holding, advisory
positions within the Office of the President outside their HOO appointments. In addition to their
leadership positions with the HOO, the Director General and Deputy Director General are also employed
as presidential advisors within the Office of the President with the titles, respectively, of Advisor to
President on Administrative Affairs and Chief of the Presidential Programs. We believe that holding two
government positions simultaneously can, and in this case does, create a conflict of interest.

According to USAID, which provides funding for a wide array of presidential advisors under its Support
to the Center of Government program, the Director General and Deputy Director General of the HOO
were employed as advisors to the Afghan President under that program prior to their presidential
appointments to the HOO. This employment arrangement under USAID continued even after they were
appointed to their HOO leadership positions despite criticism from a variety of stakeholders within the
international community. For example, during an international donor group meeting in August 2009,
concern was expressed over USAID’s provision of salary support to the Director General of HOO as an
advisor to the President. The meeting was chaired by UNAMA and included representatives from UNDP,
USAID and UNODC. During interviews with SIGAR, some of these same international donors expressed
disapproval with the HOO Director General and Deputy Director General not giving up their former jobs
as presidential advisors.

As a result, the personal independence of both the Director General and the Deputy Director General of
the HOO has been impaired, in appearance if not in actuality, because of their dual roles within the
Afghan government. This impairment creates an inherent conflict of interest that could affect the
HOO’s performance of its duties, including the limiting of oversight inquiries and reporting. For
example, HOO leadership may have been distracted because of the 2009 election. One knowledgeable
official noted that both the Director General and the Deputy Director General met frequently with the
President prior to the election. Also, according to a USAID official, the Deputy Director General often
acted as the President’s speechwriter. Concerns of this sort expressed by U.S. and international donor
officials, regardless of their validity, indicate that there is a strong perception that HOO leaders are not
independent.
SIGAR Audit-10-2 High Office of Oversight                                                          Page 7
The HOO also has external impairments to its independence due to the way in which its operating
budget is administered by the Afghan government. While the HOO legislation states that the HOO is an
independent budgetary entity, and the HOO has its own line item in the national budget, the amount of
the HOO’s government budget is decided by the Ministry of Finance, a line ministry that reports to the
President. This means that the HOO has no control over the amount that goes into the budget line. In
addition, the $1 million budget allocation to the HOO for this year is reportedly for operating expenses
only, and not for project development, making the HOO dependent on international donor assistance to
carry out projects.

With regard to organizational independence, GAO’s Government Auditing Standards stipulates that
government oversight organizations are generally presumed to be organizationally independent if the
head of the organization is elected or directly appointed or confirmed by a legislative body, subject to
removal by a legislative body, reports to a legislative body, and is accountable to a legislative body. The
HOO legislation specifies that the Director General is appointed by and reports to the President.
Consequently, there is no check and balance on the appointment or dismissal of the HOO Director
General by the President of Afghanistan which makes the HOO organization dependent on the Executive
Branch.

Despite the declaration in the HOO legislation that the HOO “…shall be independent in carrying out its
duties…,” the consensus opinion among members of the international community is that the HOO is not
truly independent as an institution. However, on the subject of parliamentary oversight, the HOO
leadership as well as several international representatives stated that being accountable to the entire
Afghan Parliament for appointment or dismissal would render the Director General vulnerable to the
demands made by numerous Members of Parliament. Moreover, the HOO is reportedly renting its
current office space from the Office of the President, which raises additional questions regarding the
perception of HOO independence.

Weak Legislative Framework
There is wide recognition both within the HOO and among international partners that the current HOO
legislation is too weak. As acknowledged by a Senior Advisor for the U.S. Department of Justice (who
had been providing advice to the HOO on revisions to its enabling legislation), Afghan legislation does
not currently provide the HOO with sufficient authority to be an effective oversight institution.
Strengthening the HOO’s legislative framework is necessary. For example, the HOO has no investigative
powers. Under Article 134 of the Afghan Constitution, discovery of crimes is the duty of the police while
investigation and prosecution are entrusted to the Attorney General’s Office. As stated in a recent
report by an international consultant, “Although ‘oversight’ is potentially a powerful tool in any area of
activity, the public may perceive an oversight body without any power to detect or investigate
corruption as being “toothless.”

The current HOO legislation lacks a direct investigation role for the HOO. The HOO can collect
information and determine whether a complaint warrants investigation by other government agencies,
but cannot conduct the investigations, and thus is dependent on other entities to perform these
functions. Similarly, the Case Tracking Department can track the progress of corruption cases through
law enforcement agencies but has no investigative or prosecutorial authority. HOO’s Case Tracking
Department informed SIGAR that it has referred 26 cases to the Attorney General’s Office, the Supreme
Court, and the Ministry of Justice since the HOO’s inception.

SIGAR Audit-10-2 High Office of Oversight                                                         Page 8
The HOO legislation does not provide the HOO with adequate powers of enforcement. For example, the
legislation does not contain criminal penalties for failure to submit asset declaration forms to the HOO
or for lying on them. There is no provision in the legislation that formally obligates government agencies
to report corruption to the HOO, nor are there any specified penalties for offices refusing to provide
documents or information requested by the HOO, or for not complying with HOO advice or
recommendations.

International representatives have bemoaned the fact that the definition of corruption, as outlined in
the current HOO law, does not mention nepotism. Nor is there anything in the existing Civil Service
Code defining what constitutes conflicts of interest for civil servants or addressing the issue of making
false claims.

There have been ongoing efforts conducted by the U.S. Department of State, the UNODC, UNDP and the
U.K. Embassy to revise the HOO legislation to invest the HOO with greater authority and independence.
A version of the draft revision is under consideration by the HOO at this time. However, there has been
a growing concern that even the current revisions of the HOO legislation are insufficient to provide the
HOO with sufficient tools to be an effective oversight institution, and that technical efforts at reforming
the legislation must be accompanied by renewed engagement in a high level political process to ensure
that reform is enacted. International partners representing HOO donors (the United States, the United
Kingdom, and Norway) have recently determined that despite recent efforts in to draft a new law, the
draft remains lacking in proper enforcement mechanisms for compliance, investigative powers,
independence from the President, and a guaranteed budget. In addition, the draft revision lacks any
obligation on the part of government institutions to report corruption.

In light of fraud committed in the August 2009 presidential elections, as well as the current media
attention directed toward the extent of corruption in Afghanistan, these international partners have
indicated to SIGAR that the time is ripe to initiate a new and stronger process with the Afghan
government for reform, not only of the HOO but for anti-corruption efforts in general. Establishing
benchmarks as preconditions for international commitments of assistance could help lead to necessary
reforms.

Human Resource Challenges
In terms of human resources, the HOO’s organizational chart calls for a staff of approximately 500
employees, including positions in the provinces which the HOO plans to fill in the future. However, the
current number of employees is approximately 100, meaning that the HOO is only 20 percent staffed.
Some 80 of the HOO’s current employees are holdovers from its predecessor organization, the General
Independent Administration for Anti-Corruption, 7 while the remaining 20 or so are made up of the new
HOO leadership plus department managers and advisory staff. A clear example of the HOO’s lack of
staffing is the Prevention Department, responsible for working with government ministries to simplify
bureaucratic procedures, which only has two of its 26 authorized positions filled. An advisor for that
department informed SIGAR that he often needed to borrow staff from other departments in order to
perform the department’s tasks. Another example is the HOO Oversight Department which has filled
only 10 out of its authorized 52 positions. Further, the Complaints Department did not have a database
officer and the Strategy and Planning Department lacked a database developer to better enable

7
 According to a March 2009 USAID assessment, the General Independent Administration for Anti-Corruption was
considered a failure and was eventually dissolved due to charges of corruption.
SIGAR Audit-10-2 High Office of Oversight                                                          Page 9
collection and processing of information (though the department advisor stated that they were in the
process of recruiting one). As a result, work that would normally be accomplished via computers has
been done manually for the past six months.

The discrepancies between authorized and actual numbers of positions are attributable to a number of
factors. According to several HOO representatives, it is very difficult to recruit new staff with the
requisite qualifications for positions because many salaries for positions in the Afghan Civil Service are
not competitive. Also, some HOO managers indicated a disinclination to go too fast in the hiring process
to help ensure that prospective employees first pass a vetting process and possess the necessary
qualifications. Moreover, many of the HOO’s existing staff members had limited language and computer
skills, and lacked capacity with respect to program monitoring and evaluation, and information
gathering and interviewing techniques. Several department representatives informed SIGAR that some
of their employees had only recently completed their education and may not be fully qualified.

HOO management has been critical of the slowness of actions on the part of UNDP. For example, the
HOO Deputy Director General informed SIGAR that recruitment for a UNDP advisor can take months and
that there is a slow rate of delivery on procurement.

To help mitigate some of these concerns, the HOO is currently working with the Afghan Civil Service
Commission to implement a pay and grade system that would be merit-based and hopefully result in
higher salaries including skills and performance-based pay increases. The HOO and UNDP are also
considering a plan for a certain number of Afghan national positions to be funded by UNDP at higher
salary rates than those of the Afghan Civil Service. In this case, the HOO would actually hire the
candidates and the UNDP would have a say in candidate selection.

Operational Shortcomings
During the course of this audit, SIGAR noted a number of operational shortcomings on the part of the
HOO. Following are some examples:

    •   Although the HOO has devised a strategy paper, it has not yet completed a concrete action plan
        with goals and measurable performance benchmarks. However, a HOO consultant has indicated
        that the HOO is in the process of completing its strategic plan.
    •   Despite the fact that publishing annual reports of the HOO’s activities and making them
        available to the public is one of the prescribed duties in the HOO legislation, the HOO has not
        yet produced or published such a report.
    •   Although HOO management indicates that, from the HOO’s inception to the present time it has
        submitted approximately 26 cases, along with evidence and documentation, to the Attorney
        General’s Office, the Chief Justice of the Supreme Court, and various sections within the
        Ministry of Justice, the Case Tracking Department was unable to provide SIGAR with information
        on whether those cases resulted in any prosecution, conviction, or sentencing.
    •   Even HOO’s declared accomplishments suffer from gaps and limitations. For example, in
        accordance with the Afghanistan Reconstruction Trust Fund and UNCAC, the HOO has received
        approximately 78% of asset declaration forms requested from public officials. However, the
        HOO has not yet begun the process of verifying the assets to determine the accuracy of the
        declarations, having informed SIGAR that they are still trying to develop a strategy for asset
        verification.

SIGAR Audit-10-2 High Office of Oversight                                                       Page 10
    •   In addition, the HOO has not yet completed a written evaluation of the impact of its pilot project
        for vehicle registration reform.



THE HOO NEEDS MORE COORDINATED SUPPORT AND COMMITMENT FROM THE UNITED
STATES
As a relatively new institution, the HOO faces considerable challenges in implementing the Afghan
government’s anti-corruption strategy and is heavily dependent on the international community for
assistance. According to its leadership, the HOO cannot perform its tasks alone and needs to
collaborate with other institutions, especially U.S. organizations, since the United States is the largest
contributor to reconstruction efforts in Afghanistan.

U.S. Government support for the HOO has been principally through USAID, which has budgeted just over
$1 million through October 2009 to assist the HOO with start-up costs, computer support, training,
equipment, media projects, and advisors. While other U.S. agencies have been involved in discussions
concerning the HOO, they have offered little or no support in terms of funding or advice to the HOO. A
notable exception has been a senior DoJ advisor who has provided advice and legal assistance with
respect to drafting a revision to the HOO’s enabling legislation. However, that assistance has been on an
ad hoc basis and narrowly focused. According to HOO leadership, the DoJ focuses primarily on the law
enforcement side and needs to examine how to support an oversight and anti-corruption body like the
HOO.

During an interview with SIGAR, the HOO Deputy Director General indicated that anti-corruption was
not a big issue until this past year and that there was no clear U.S. Government strategy on how to be
engaged in anti-corruption. With the increased attention given to corruption in Afghanistan by world
leaders and the media, there has been more of a focus on the HOO, and its role in fighting corruption,
within the U.S. Embassy community in Kabul. The first reported gathering by U.S. and international
stakeholders to discuss matters related to the HOO and anti-corruption was held in May 2009 at the
Norwegian Embassy, with a follow-on meeting in June 2009. However, despite this increased interest,
no single agency or individual has been officially designated to lead or coordinate U.S. Government
efforts to build the HOO’s capacity to implement anti-corruption activities.

The international community has demonstrated a significant interest in and commitment to the HOO.
For example, the UNDP has committed $7.3 million over the next three years for HOO support through
its ACT Project which provides the HOO with advisors, security, and rent for office space and vehicles.
The ACT Project is supported by contributions from the United Kingdom, Norway, and Italy.

Although international donors to the HOO made initial attempts to coordinate donor assistance by way
of a HOO Working Group led by the United Nations Assistance Mission in Afghanistan, the departure of
a key UNAMA staff member in September 2009 contributed to the Working Group’s demise after only a
handful of meetings. The sessions were judged by participants (from USAID, UNODC, UNDP, and the
Department of State) to be useful in preventing duplication of effort.

Members of HOO management have expressed the opinion that there has been insufficient leadership
and coordination of donor assistance to the HOO, as well as no clear plan or demonstrated interest on
the part of the U.S. government to support anti-corruption efforts. Their point of view is that donors are

SIGAR Audit-10-2 High Office of Oversight                                                           Page 11
not inviting the HOO to discuss needs or to make their intentions known. For example, the HOO Deputy
Director General stated that USAID assistance provided to the HOO through the Asia Foundation, though
instrumental for the start-up of the HOO, does not demonstrate a long term commitment. In addition,
according to the Deputy Director General, USAID has not clearly indicated whether anti-corruption is a
sector the agency is interested in supporting. He further stated that he would like for a U.S. government
representative to provide dedicated anti-corruption support by actively engaging with the HOO,
enabling a process whereby the HOO can articulate its needs and the U.S. government could then
determine how best to support the HOO. Such determinations should be informed by a comprehensive
report produced by a USAID contractor in March 2009 advising USAID on anti-corruption engagement in
Afghanistan.

Central leadership is a critical element that underpins the Government Performance and Results Act of
1993 and a lead agency or coordinator can serve as a focal point for integrating multi-agency efforts and
ensuring effective implementation. Without a designated leader or focal point for communicating with
and coordinating U.S. Government assistance to the HOO, that assistance may not be as effective in
achieving the anti-corruption goals desired by the Afghans, the U.S. Government, or the international
community. Further, the Asia Foundation Project Advisor for assistance to the HOO expressed concern
that some of the Afghan advisors hired by the foundation and seconded to the HOO (widely
acknowledged to be a capable and talented group) might decide to seek employment elsewhere if they
receive signals that donor assistance to the HOO will be discontinued.

One possible area in which the United States could provide meaningful and timely assistance might be
the Provincial Committee for Redress (as a pilot project) that the HOO has discussed previously with U.S.
officials. The concept for the project is to extend the complaints intake facility to the provinces, which
would help provide credibility for the HOO outside of Kabul. HOO leadership would reportedly like to
expand the concept into a proper plan and is looking for necessary resources and support.



CONCLUSIONS
The HOO suffers from serious shortcomings as an institution both in terms of its operational capacity
and the legislative framework on which it is based. Despite its efforts and limited progress to date, as
well as some dedicated staff, the HOO faces great challenges in building its capacity to fulfill its
ambitious mandate. The development of human and operational capacity of the HOO will amount to
little unless it is coupled with substantial reform of the legislation meant to provide “teeth” to its
mandate. The Afghan government has not invested the HOO with the appropriate authority or support
to make it an effective oversight institution. An emerging body of opinion among some international
partners is that the international community has not engaged the Afghan government in a political
process to press for meaningful reform of the HOO. International efforts for capacity development of
the HOO have indeed benefited the HOO in the first year of operations. However, the international
community, and the U.S. government in particular, need to improve coordination of its efforts and to
demonstrate a more focused commitment as well as a greater sense of urgency toward the HOO’s
success.

If the HOO is to succeed in its task to oversee and coordinate the National Anti-Corruption Strategy for
Afghanistan, it must operate with clear and enhanced mechanisms of enforcement, investigation, and
authority to support its daily responsibilities. It must benefit from organizational and external
SIGAR Audit-10-2 High Office of Oversight                                                        Page 12
(budgetary) independence and take steps to ensure personal independence. Finally, the HOO must
develop and monitor the fulfillment of a clear set of performance benchmarks in conjunction with
international partners.



RECOMMENDATIONS
SIGAR has developed the following five recommendations in order to address the issues identified in this
report.

To help ensure the effective adoption and implementation of reform measures, SIGAR recommends that
the U.S. Ambassador to Afghanistan, in consultation with USAID, the HOO, and international partners:

    •   Determine conditions on which to base future assistance, including the enactment of mutually
        agreeable legislative reforms based on key principles to enhance HOO’s authority and
        independence, and the establishment by the HOO of measureable performance benchmarks.

To remedy an impairment of personal independence on the part of HOO leadership, SIGAR recommends
that the U.S. Ambassador to Afghanistan, through appropriate diplomatic channels including the Joint
Coordination and Monitoring Board:

    •   Urge the HOO Director General and Deputy Director General to either resign from their
        presidential advisory positions or, alternatively, resign from their HOO positions.

To provide leadership to the U.S. Government assistance effort for the HOO, SIGAR recommends that
the U.S. Ambassador to Afghanistan:

    •   Designate an agency or individual to oversee assistance to the HOO, both in terms of
        institutional capacity building and legislative reform, in conjunction with international partners.

To support the HOO in meeting performance benchmarks, SIGAR recommends that the U.S. Ambassador
to Afghanistan:

    •   Ensure that the designated agency or individual oversee the appointment of high-level advisors,
        such as judges or anti-corruption specialists, to be embedded at the HOO in order to provide
        sustained counsel, mentoring, and strategic advice to HOO leadership.

In order to improve coordination and avoid duplication of effort and assistance to the HOO among U.S.
and international donors, SIGAR recommends that the U.S. Ambassador to Afghanistan:

    •   Engage the international community to reinvigorate international donor coordination efforts,
        perhaps under the auspices of the United Nations Assistance Mission in Afghanistan.




SIGAR Audit-10-2 High Office of Oversight                                                         Page 13
COMMENTS


The U.S. Embassy Kabul and the USAID Mission in Afghanistan provided joint written comments on a
draft of this report. The comments are included in appendix II of this report. In their response, they
expressed joint concurrence with the report’s findings and recommendations. The U.S. Embassy Kabul
and USAID Mission indicated their support for efforts to develop accountable and effective institutions
across the Afghan government, as articulated in the draft anticorruption strategy currently under review
in Washington. According to the Embassy’s Coordinating Director for Development and Economic
Affairs and Acting USAID Mission Director, that strategy envisions a substantial transformation of the
HOO along the lines recommended by the SIGAR report. In its written response, the U.S. Embassy Kabul
and USAID Mission indicated strong support for each of the recommendations in the draft report and
outlined actions that it had already taken, or which it planned to take, in response to those
recommendations. The U.S. Embassy Kabul and USAID Mission in Afghanistan also provided technical
comments which SIGAR has incorporated into this report, as appropriate.

SIGAR also provided a draft of this report to the HOO for review and comment, but the HOO did not
provide any written comments.




SIGAR Audit-10-2 High Office of Oversight                                                      Page 14
APPENDIX I: SCOPE AND METHODOLOGY


This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s review of U.S. and other donor efforts to strengthen the capability of Afghanistan’s
High Office of Oversight (HOO) to oversee the implementation of Afghanistan’s anti-corruption strategy.

To identify assistance provided by the United States and other donors to strengthen the institutional
development of the HOO, we reviewed documentation from and conducted interviews with responsible
officials at the U.S. Embassy-Kabul, including officials from the U.S. Departments of State and Justice, as
well as the U.S. Agency for International Development. We also interviewed international and non-
governmental providers and coordinators of assistance to the HOO, including the UN Office of Drugs and
Crime, the UN Development Program, the UN Assistance Mission in Afghanistan, the Asia Foundation,
the United Kingdom’s Department for International Development, and the Government of Norway.

To assess the capabilities and performance of the HOO in fulfilling its mandate, we reviewed relevant
U.S., Afghan, and international laws, conventions, standards, and development strategies. We
conducted interviews with HOO leadership, management and advisory staff, including the Director
General and Deputy Director General of the HOO, and advisors and heads of eight HOO departments
and an international consultant embedded with the HOO.

To assess the effectiveness of U.S. assistance to the HOO, we utilized information obtained through the
documents and interviews described above and developed conclusions based on that evidence. After
identifying gaps in the HOO’s legislative framework and operational shortcomings, we compared those
findings with the provision of U.S. assistance to determine whether that assistance might effectively
assist the HOO in filling those gaps and overcoming the shortcomings.

This report is part of a series of SIGAR audits addressing U.S. efforts to combat corruption and
strengthen the rule of law. We conducted work in Kabul, Afghanistan, and Washington, D.C. from
September to November 2009 in accordance with generally accepted government auditing standards.
These standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe
the evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. The audit was conducted by the Office of the Special Inspector General for Afghanistan
Reconstruction under the authority of Public Law No. 110-181, and the Inspector General Act of 1978, as
amended.




SIGAR Audit-10-2 High Office of Oversight                                                        Page 15
APPENDIX II: COMMENTS FROM U.S. EMBASSY-KABUL AND USAID/AFGHANISTAN




SIGAR Audit-10-2 High Office of Oversight                             Page 16
SIGAR Audit-10-2 High Office of Oversight   Page 17
SIGAR Audit-10-2 High Office of Oversight   Page 18
(This report was conducted under audit project code SIGAR-011A).

SIGAR Audit-10-2 High Office of Oversight                          Page 19
_________________________________________________________________________________
SIGAR’s Mission                  The mission of the Special Inspector General for Afghanistan
                                 Reconstruction is to enhance oversight of programs for the
                                 reconstruction of Afghanistan by conducting independent and
                                 objective audits, inspections, and investigations on the use of
                                 taxpayer dollars and related funds. SIGAR works to provide
                                 accurate and balanced information, evaluations, analysis, and
                                 recommendations to help the U.S. Congress, U.S. agencies, and
                                 other decision-makers to make informed oversight, policy, and
                                 funding decisions to:

                                      •     improve effectiveness of the overall reconstruction strategy
                                            and its component programs;
                                      •     improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                      •     improve contracting and contract management processes;
                                      •     prevent fraud, waste, and abuse; and
                                      •     advance U.S. interests in reconstructing Afghanistan.

Obtaining Copies of SIGAR             To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies               SIGAR’s Web site (www.sigar.mil). SIGAR posts all released
                                      reports, testimonies, and correspondence on its Web site.

To Report Fraud, Waste, and           To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan                  allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs               reprisal contact SIGAR’s hotline:

                                            •   Web: www.sigar.mil/fraud
                                            •   Email: hotline@sigar.mil
                                            •   Phone Afghanistan: +93 (0) 700-10-7300
                                            •   Phone DSN Afghanistan 318-237-2575
                                            •   Phone International: +1-866-329-8893
                                            •   Phone DSN International: 312-664-0378
                                            •   U.S. fax: +1-703-604-0983

Public Affairs                        Public Affairs Officer
                                         • Phone: 703-602-8742
                                         • Email: PublicAffairs@sigar.mil
                                         • Mail: SIGAR Public Affairs
                                              400 Army Navy Drive
                                              Arlington, VA 22202

SIGAR Audit-10-2 High Office of Oversight                                                      Page 20
